BELL MOORE
& RICHTER SC

JOHN M. MOORE

ESTABLISHED IN 1851

WARD I. RICHTER

LAWYERS

WILLIAM A. ABBOTT
WILLIAM C. WILLIAMS

PATRICIA EPSTEIN PUTNEY
ANN C. EMMERICH

MADISON, WISCONSIN
PHONE: (608) 257-3764

SHEILA M. SULLIVAN
DAVID G. RESS

MELITA M. MULLEN
STORM B. LARSON

345 WEST WASHINGTON AVENUE, SUITE 302

DAVID E. McFARLANE

KELLY J. STOHR

CORTNEY J. RUNNELS

53703

FACSIMILE:

(608) 257-3757

www.bmrlawyers.com
E-MAIL: ssullivan@bmrlawyers.com
Direct Line: (608) 259-2315

February 5, 2021
Via Electronic Filing
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Zachary Pulera v. Victoria Sarzant, et al.
United States Supreme Court Case No. 20-977
Our File No. 730225

Dear Mr. Harris:
This letter is written on behalf of Respondent Dr. Karen Butler in this matter. On January
14, 2021, Petitioner filed a Petition for Writ of Certiorari which was placed on the docket on
January 22, 2021. Pursuant to Rules 15.1, 15.5 and 20.5, because this case clearly does not warrant
review by the Supreme Court, this Respondent submits this letter to respectfully inform the Court
that she does not intend to file a response to the Petition for Writ of Certiorari and thus waives her
right to do so, unless requested by the Court to file a response. The waiver form is enclosed.
Thank you.
Respectfully submitted,
BELL, MOORE & RICHTER, S.C.

Sheila M. Sullivan
Counsel of Record for Respondent
Dr. Karen Butler
SMS:kjl
Enclosure
Copy to: All counsel of record (via electronic filing)

